<html>
<title> - PACIFIC NORTHWEST SEISMIC HAZARDS: PLANNING AND PREPARING FOR THE NEXT DISASTER</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                   PACIFIC NORTHWEST SEISMIC HAZARDS:
                     PLANNING AND PREPARING FOR THE
                             NEXT DISASTER

=======================================================================

                                (114-18)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-639 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
                                ------                                
                                

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                  LOU BARLETTA, Pennsylvania, Chairman
ERIC A. ``RICK'' CRAWFORD, Arkansas  ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MARK MEADOWS, North Carolina             Columbia
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RYAN A. COSTELLO, Pennsylvania       DONNA F. EDWARDS, Maryland
BARBARA COMSTOCK, Virginia           DINA TITUS, Nevada
CARLOS CURBELO, Florida              PETER A. DeFAZIO, Oregon (Ex 
DAVID ROUZER, North Carolina             Officio)
BILL SHUSTER, Pennsylvania (Ex       VACANCY
    Officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Robert J. Fenton, Deputy Associate Administrator, Office of 
  Response and Recovery, Federal Emergency Management Agency.....     4
Scott A. Ashford, Ph.D., Dean, College of Engineering, Oregon 
  State University...............................................     4
Richard M. Allen, Ph.D., Director, Berkeley Seismological 
  Laboratory, University of California, Berkeley.................     4
John D. Hooper, Senior Principal and Director of Earthquake 
  Engineering, Magnusson Klemencic Associates, on behalf of the 
  American Society of Civil Engineers............................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Peter A. DeFazio of Oregon..................................    20

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Robert J. Fenton.................................................    27
Scott A. Ashford, Ph.D...........................................    41
Richard M. Allen, Ph.D...........................................    49
John D. Hooper...................................................    52

                       SUBMISSION FOR THE RECORD

Robert J. Fenton, Deputy Associate Administrator, Office of 
  Response and Recovery, Federal Emergency Management Agency, 
  responses to questions for the record..........................    35
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
PACIFIC NORTHWEST SEISMIC HAZARDS: PLANNING AND PREPARING FOR THE NEXT 
                                DISASTER

                              ----------                              


                         TUESDAY, MAY 19, 2015

                  House of Representatives,
       Subcommittee on Economic Development, Public
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:35 a.m., in 
room 2167, Rayburn House Office Building, Hon. Ryan A. Costello 
presiding.
    Mr. Costello. Good morning. The subcommittee will come to 
order. Welcome to today's hearing entitled ``Pacific Northwest 
Seismic Hazards: Planning and Preparing for the Next 
Disaster.''
    The purpose of today's hearing is to examine the Federal 
Emergency Management Agency, FEMA's role in earthquake hazard 
preparedness, mitigation, response, and recovery. We are also 
going to speak with some of the world's leaders in seismology 
and earthquakes.
    I want to thank Ranking Member DeFazio for his leadership 
on this critical national issue. He has been an advocate for 
his State and the Pacific Northwest supporting preparedness and 
mitigation efforts and the development of a public west coast 
earthquake early warning system.
    Just last week, we saw the second devastating earthquake 
strike Nepal. Our thoughts and prayers go out to those impacted 
and the thousands that are working to help.
    We know earthquakes pose one of the greatest natural 
hazards here in the United States. They strike without warning 
and result in potentially catastrophic casualties and damage to 
buildings and infrastructure.
    Portions of all 50 States and the District of Columbia are 
vulnerable to earthquake hazards. Earthquakes cannot be 
prevented, but their impacts on life, property, and the economy 
can be managed.
    FEMA is responsible for coordinating the Federal response 
to a catastrophic earthquake and has been diligently working to 
help States plan and prepare for the inevitability of an 
earthquake. FEMA has a robust National Exercise Program that in 
recent years has tested State and regional earthquake response 
plans in Alaska, in the South and Midwest, along the New Madrid 
Seismic Zone, and just last week in California.
    We know that FEMA's national urban search and rescue teams 
are key assets in the wake of disasters like earthquakes. This 
Congress, H.R. 1471, the FEMA Disaster Assistance Reform Act of 
2015, which was voted out of committee in April, reauthorizes 
the USAR program and provides key protections to the 
individuals who serve on those teams.
    We also will hear from Dr. Ashford about the earthquake 
threat in Oregon and the Pacific Northwest and the efforts the 
State has led to bring together all members of the community to 
strengthen communities.
    While we are not able to predict earthquakes, I was excited 
to learn that Dr. Allen and his colleagues are working with the 
Federal Government to develop an earthquake early warning 
system.
    Finally, Mr. Hooper has been leading efforts to update 
model building codes to include the latest engineering and 
building science to minimize earthquake impacts on buildings. 
There are lessons to be learned from the efforts of leaders in 
the Pacific Northwest that should drive the way we plan for and 
mitigate against disasters.
    I look forward to hearing from the witnesses and thank them 
all for being here today.
    I now call on the ranking member of the subcommittee, Mr. 
Carson, for a brief opening statement.
    Mr. Carson. Thank you, Mr. Costello. And we acknowledge the 
ranking member, Mr. Peter DeFazio. My good friend Albio is here 
as well.
    Good morning. I join in welcoming today's witnesses for 
this important hearing.
    When someone hears ``earthquake,'' they immediately think 
of the west coast, but there are actually 42 States at 
significant risk for a quake. Indiana, the great Hoosier State, 
is one of them. Two major fault zones run in or near 
southwestern Indiana, the Wabash Valley Seismic Zone and the 
New Madrid Zone as well.
    In the past, the New Madrid Fault has produced magnitude 7 
to 8 earthquakes. If a 7.7 quake from the New Madrid Fault was 
to occur today, the Mid-America Earthquake Center estimates 
that it would damage 14,000 buildings, resulting in 2,000 
deaths, and cause $12 billion in direct economic loss in 
Indiana alone.
    The Federal Emergency Management Agency, or FEMA, plays an 
important role in helping the Nation address earthquake risks. 
I appreciate that the 2011 National Level Exercise tested 
earthquake plans in the New Madrid Zone. Indiana had many 
participants and learned a great deal, including the need to 
address urban search and rescue issues beforehand. As a result 
of this exercise, communication has increased among the States 
affected by the New Madrid Fault.
    Last year, several public and private agencies in Indiana 
participated in the Central United States Earthquake Consortium 
multistate CAPSTONE-14 exercise. That exercise assessed 
national and regional response and recovery capabilities after 
a quake on the New Madrid Zone. Building on the 2011 exercise, 
the Hoosier State focused on housing recovery support functions 
to address post-disaster housing issues and to facilitate 
delivery of resources to local governments for reconstruction. 
This exercise provides valuable insight into what works and 
what needs improvement.
    FEMA has statutory duties under the National Earthquake 
Hazards Reduction Program, or NEHRP, and I would like to see 
this subcommittee take a really more active role in the 
reauthorization of this program. We need to ensure that FEMA is 
fulfilling its mission and has adequate authority and funding 
levels to perform its duties. The GAO has identified no-notice 
catastrophic events such as earthquakes as one of the greatest 
emergency management challenges that FEMA faces. We cannot 
ignore this issue.
    And finally, I would be remiss to not recognize and commend 
the urban search and rescue teams that are assisting in the 
aftermath of the two recent Nepal quakes. Their training and 
skills are being put to effective use. Once again they are 
putting their lives at risk to help others around the world. 
This is a perfect example of why Congress needs to ensure the 
teams have the protection and benefits they deserve. Congress 
needs to move forward quickly on H.R. 1471, the FEMA Disaster 
Assistance Reform Act of 2015, which was recently reported from 
this committee.
    Thank you. And I yield back, Mr. Chairman.
    Mr. Costello. Thank you, Ranking Member Carson.
    I now call on the ranking member of the full committee, Mr. 
DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Appreciate your 
bringing attention to this.
    I would observe, unfortunately, here in Washington, DC, we 
seem to have what I call a tombstone mentality, which if this 
were the day after the Cascadia Subduction Fault or a big 
earthquake on New Madrid the room would be packed, press would 
be out in the hallways, and we would have lines waiting.
    But the sad fact is that if we are better prepared, if we 
invest in resilience, if we invest in the case of the west 
coast and an early warning system, we can save potentially 
thousands of lives and billions of dollars in infrastructure 
and economic damages and losses.
    The Cascadia earthquake, basically it is inevitable. The 
question is when and what will we do to prepare for it before 
then. I did get a minor provision in H.R. 1471 that would 
encourage States to use hazard mitigation and support of 
building capability for earthquake warning, except, 
unfortunately, FEMA is underinvesting in that program.
    For the Pacific Northwest, Oregon, Washington, at risk, and 
northern California, for $38 million the Government of the 
United States of America could fund a real-time, at-sea-based 
early warning system which would give people halfway up the 
coast a couple of minutes to get out of inundation zones. It 
would give people in Portland maybe 7 minutes to shut down the 
Metro, get people off the bridges, shut down manufacturing 
processes, et cetera, over in the valley. We would have 5 to 7 
minutes to evacuate schools made out of bricks that are going 
to fall down and kill the kids.
    But we don't have that because we are the United States of 
America and we can't afford $38 million to save thousands of 
lives. And then everybody would be pointing fingers the day 
after the quake and say: Why didn't we do that, just like with 
Amtrak, and we can and we should. And so I am really pleased 
you are holding this hearing here today.
    I want to particularly thank Dr. Scott Ashford, dean of 
Oregon State University's College of Engineering. He has worked 
very closely with the State of Oregon on an earthquake 
resilience plan. We are really at the beginning stages. Our 
legislature is deciding whether to commit more and how much 
State money to that sort of predisaster investment, and he has 
played a very key role in that.
    With that, I look forward to hearing from the witnesses. 
Thank you, Mr. Chairman.
    Oh, I would like to put my entire statement, which is long 
and very thoughtful and more detailed, in the record, without 
objection.
    Mr. Costello. Without objection. Thank you, Mr. DeFazio.
    We will have a single panel of witnesses today. We have Mr. 
Robert J. Fenton, Deputy Associate Administrator, Office of 
Response and Recovery at FEMA; Dr. Scott A. Ashford, dean of 
the College of Engineering at Oregon State University; Dr. 
Richard M. Allen, director of the Berkeley Seismological 
Laboratory at UC Berkeley; and Mr. John Hooper, senior 
principal and director of Earthquake Engineering at MKA 
[Magnusson Klemencic Associates], representing the American 
Society of Civil Engineers.
    I ask unanimous consent that our witnesses' full statements 
be included in the record. Without objection, so ordered.
    Since your written testimony has been made a part of the 
record, the subcommittee would request that you limit your oral 
testimony to 5 minutes.
    Mr. Fenton, you may proceed.

TESTIMONY OF ROBERT J. FENTON, DEPUTY ASSOCIATE ADMINISTRATOR, 
 OFFICE OF RESPONSE AND RECOVERY, FEDERAL EMERGENCY MANAGEMENT 
AGENCY; SCOTT A. ASHFORD, PH.D., DEAN, COLLEGE OF ENGINEERING, 
  OREGON STATE UNIVERSITY; RICHARD M. ALLEN, PH.D., DIRECTOR, 
 BERKELEY SEISMOLOGICAL LABORATORY, UNIVERSITY OF CALIFORNIA, 
BERKELEY; AND JOHN D. HOOPER, SENIOR PRINCIPAL AND DIRECTOR OF 
  EARTHQUAKE ENGINEERING, MAGNUSSON KLEMENCIC ASSOCIATES, ON 
       BEHALF OF THE AMERICAN SOCIETY OF CIVIL ENGINEERS

    Mr. Fenton. Vice Chairman Costello, Ranking Member Carson, 
and members of the distinguished subcommittee, as a fifth-
generation San Franciscan who has served 13 years for FEMA 
Region IX's Oakland office in California and will soon be 
reporting as its Regional Administrator, I understand the 
significant threats that catastrophic earthquakes pose to our 
Nation. We have seen in recent weeks the devastating 
consequences of both the 7.3 and 7.8 magnitude earthquakes that 
struck Nepal, and our thoughts continue to be with the 
survivors.
    Catastrophic earthquakes of that magnitude in an urban area 
in the United States would impact millions of people and cause 
profound social and economic impacts. That is why it is vitally 
important that the Federal Government maintain a forward-
leaning posture and be ready to act decisively at the direction 
of the President to effectively support State, local, tribal, 
and territorial governments in saving lives and protecting 
property.
    I appreciate the opportunity today to update you on FEMA 
and our whole-community partner efforts to improve our Nation's 
preparedness for earthquake threats and to maintain our 
readiness to respond.
    Over the past 4 years, and at the direction of the 
President, FEMA and our partners have worked to develop and 
implement the National Preparedness System, which includes a 
national planning framework for each of the five mission areas: 
prevention, protection, mitigation, response, and recovery. 
These frameworks identify how the whole community will build 
and deliver the core capabilities required to address the 
threats that pose the greatest risks to our Nation.
    In support of the national response and recovery 
frameworks, we recently developed Federal interagency 
operational plans which are all-hazards plans based on a 
maximum of maximums scenario that includes catastrophic 
incidents and cascading impacts, including a major earthquake.
    In addition to the Federal interagency operational plans, 
FEMA has developed five national-level incident annexes, one of 
which is focused on earthquakes.
    In addition, we have recently facilitated the development 
of all-hazards plans in each of our 10 regions and developed 31 
regional incident annexes. The one I am holding today is for 
the Cascadia Subduction Zone in the Pacific Northwest.
    Recognizing this, FEMA, in coordination with our State, 
local, tribal, and territorial partners, is constantly seeking 
ways to improve our ability to address potential threats and 
risks associated with catastrophic events such as earthquakes. 
Through our National Exercise Program, the whole community 
continues to test, improve, and assess national preparedness 
across the whole homeland security enterprise.
    This year FEMA participated in the southern California 
earthquake exercise involving a magnitude 7.8 earthquake on the 
San Andreas Fault. FEMA, in conjunction with our partners, is 
analyzing the results of the exercise and will integrate 
lessons learned into our plans, doctrine, and operations as 
required.
    In addition to the planning and exercising that FEMA 
supports with our whole community partners, I also want to 
highlight our efforts in improving individual preparedness for 
earthquakes.
    In 2013, FEMA and our partners unveiled the America's 
PrepareAthon, a nationwide community-based campaign for action 
to increase emergency preparedness and resilience. A major 
activity of the America's PrepareAthon is the Great Shakeout, 
an exercise whereby millions of people participate in 
earthquake drills. We continue to see increasing levels of 
participation in the Great Shakeout.
    I would also like to highlight that FEMA has made 
significant strides in alert and warning systems through our 
Integrated Public Alert and Warning System for all hazards 
called IPAWS. Early detection for earthquakes can be difficult. 
However, I am encouraged by our State partners that are 
actively installing sensors in the ground to warn of earthquake 
activities as early as possible.
    In conclusion, FEMA is one part of the whole community 
effort that is required to effectively prepare for, respond to, 
and recover from disasters. The response to a major earthquake 
along one of our Nation's fault lines will require resources 
from across all levels of Government, private sector, and 
nongovernmental organizations and the public. These are the 
scenarios that we are planning to exercise against, and we are 
adapting the way we do business based on these lessons learned.
    As outlined in our Administrator's and our agency's 2014 
through 2018 strategic plan, we are focusing on strategic 
priorities, including becoming an expeditionary organization 
and posturing and building capability for catastrophic 
disasters. That will help to institutionalize key improvements 
while building capacity and strengthening national capabilities 
for disaster preparedness.
    I look forward to working with you, distinguished members 
of this subcommittee, and other Members of Congress, to 
continue these important efforts. I am prepared to answer any 
questions the subcommittee has. Thank you.
    Mr. Costello. Thank you for your testimony, Mr. Fenton.
    Dr. Ashford, you may proceed.
    Mr. Ashford. Good morning, Mr. Chairman, members of the 
committee. My is Scott Ashford. I am dean of the College of 
Engineering at Oregon State University. I am pleased to be 
before you today testifying on my role as chair of our 
Governor's Task Force on Resilience Plan Implementation. As 
chair, I was responsible for advancing Oregon on a path towards 
resilience in the face of the upcoming mega-quake along the 
Cascadia Subduction Zone, perhaps the greatest impending 
natural disaster to face the United States.
    I have seen firsthand communities destroyed by earthquakes. 
Most recently, in Japan I saw the devastation left by the 2011 
9.0 subduction zone earthquake and tsunami that killed over 
15,000 people and wiped entire communities off the map.
    This is a mirror image of what we expect in the Pacific 
Northwest. The Cascadia Subduction Zone extends from northern 
California to British Columbia, where a 9.0 magnitude 
earthquake felt from Salt Lake to San Francisco will shake 3 to 
5 minutes and a tsunami will inundate much of the coastline, 
killing thousands. The last major Cascadia event occurred in 
the year 1700, and we are now due.
    The biggest challenge for Oregon is our legacy 
infrastructure, vulnerable buildings, bridges, and pipelines 
that were built before anyone knew that the Cascadia was 
active.
    This problem is not unique. States in the New Madrid Fault 
Zone, like Indiana, Arkansas, and Kentucky, are also 
seismically vulnerable because of their legacy infrastructure.
    Oregon leaders recognized the need to prepare for the 
eventual likelihood of a Cascadia event and called for the 
Oregon Resilience Plan. Our vision is that 50 years from now 
our businesses and communities will have the resilience to 
bounce back from this mega-quake. The 300-page report completed 
in 2013 contains over 140 different recommendations, and, 
frankly, it was difficult to figure out where to start.
    To find a path forward, the legislature formed the 
Governor's Task Force on Resilience Plan Implementation, which 
I chaired. Our specific recommendations were submitted to the 
legislature last September in a 2-page report, which I have 
submitted as part of my testimony. Based on our report, four 
bills now sit in our State's Senate Ways and Means Committee 
waiting for action.
    Today, I would like to focus on our recommendations in just 
three areas where the Federal Government plays a key role in 
working in partnership with States and private enterprise.
    In transportation, mobility is critical to rescue, relief, 
and recovery efforts following a natural disaster and for the 
economy to start moving so that people can get back to work. 
Our State knows what we need to do, but the price tag for the 
seismic retrofit program in Oregon is over $5 billion. The 
first phase alone, to strengthen our bridges and prevent 
landslides in the Cascadia event only along key lifeline 
routes, is $1 billion. This is definitely an area where 
enhanced State-Federal partnership is needed, where the State 
is stuck with a plan but really no money to act.
    Around liquid fuels, 90 percent of all liquid fuel used in 
Oregon comes into one single location extremely vulnerable to 
damage in an earthquake. But due to the interstate nature of 
liquid fuel transmission, Oregon has no regulatory authority to 
act. This is another area where the Federal Government can work 
with affected States to require seismic resilience of federally 
regulated utilities.
    And finally in research, with the unique combination of a 
9.0 earthquake and the legacy infrastructure, applied research 
is a way that we can assure that precious taxpayer dollars are 
used in the most value- and cost-informed manner possible. 
Businesses already understand this. Companies like Portland 
General Electric and Northwest Natural Gas have joined the BPA 
[Bonneville Power Administration], the Port of Portland, and 
ODOT [Oregon Department of Transportation] to form the Cascadia 
Lifelines Program at Oregon State University. These lifeline 
providers pool and direct their research dollars in a 
consortium aimed at finding solutions to the seismic challenges 
that they jointly face.
    Key legislature opportunities in the Congress that can 
facilitate effective public-private partnerships for applied 
research include the highway bill with university 
transportation centers, the National Earthquake Hazards 
Reduction Program, and seismic research funded by FEMA, NIST 
[National Institute of Standards and Technology], NSF [National 
Science Foundation], the USGS [U.S. Geological Survey], and the 
FHWA [Federal Highway Administration].
    In closing, the Cascadia Subduction Zone is estimated to be 
the single greatest natural threat facing the United States. 
Oregon is taking steps on its own to mitigate this threat. 
Other West Coast States and those in the New Madrid Fault Zone 
can follow our example.
    It will take decades and significant resources to improve 
our resilience, but we need to start now, and we need to all 
work together collaboratively across Governments, academia, and 
the private sector. The Federal Government is a critical 
partner in our ability as a State, a region, and a country to 
effectively prepare for this impending natural disaster.
    Thank you, Mr. Chair, members of the subcommittee, for the 
opportunity to appear before you today, and I stand ready to 
answer any questions that you might have.
    Mr. Costello. Thank you for your testimony, Dr. Ashford.
    Dr. Allen, you may proceed.
    Mr. Allen. Good morning, Mr. Chairman and members of the 
committee.
    The Pacific Northwest must be ready for a magnitude 9 
earthquake. Recent magnitude 9 events around the world include 
the 2011 Tohoku-Oki earthquake in Japan and the 2004 Sumatra 
earthquake. These are responsible for tens and hundreds of 
thousands of lives lost. The last magnitude 9 in the Pacific 
Northwest was just over 300 years ago, and we are now in the 
period when we should expect the next megathrust earthquake.
    My name is Richard Allen. I am the director of the UC 
Berkeley Seismological Laboratory and a professor of earth and 
planetary science. I am also one of the architects of the 
ShakeAlert earthquake early warning system, a new technology 
that we hope to roll out along the U.S. west coast to reduce 
the impacts of the next big earthquake. We would very much like 
to build this warning system before the next earthquake occurs, 
but to do that will require action from this legislature.
    The ShakeAlert earthquake early warning project is a 
collaboration between the University of Washington, the 
University of Oregon, the University of California, Berkeley, 
the California Institute of Technology, the U.S. Geological 
Survey, and several State agencies. We are now operating a 
demonstration earthquake early warning system that issues 
alerts to a group of test users for events throughout 
Washington, Oregon, and California.
    So what is earthquake early warning? By using networks of 
geophysical sensors distributed across the west coast, we can 
rapidly detect the beginnings of an earthquake. ShakeAlert then 
estimates the size of the event and predicts the shaking 
intensity that will follow. The warning time depends on the 
distance from the initiation point. In the case of the Pacific 
Northwest, if a magnitude 9 starts at the southern end of the 
Cascadia Subduction Zone, as research suggests, Portland could 
receive 3 minutes of warning and Seattle as much as 5 minutes.
    There are many things that can be done to reduce the 
impacts of earthquakes with a few minutes of warning. One of my 
colleagues, Professor Doug Toomey, at the University of Oregon, 
asked one of his local elementary school principals how long it 
would take to evacuate his 350-student school built in 1926. 
His answer: 1\1/2\ minutes. This is just 1 of 1,000 schools 
that a recent Oregon State survey concluded would collapse in a 
magnitude 9 earthquake.
    Studies of injuries caused by the 1994 Northridge 
earthquake show that more than 50 percent were caused by 
falling hazards, bookcases, ceiling tiles, lighting fixtures, 
et cetera. If everyone gets a warning, and if everyone drops, 
takes cover, and holds on, then we could reduce the number of 
earthquake injuries by 50 percent.
    Other applications of earthquake early warning include 
automated response of transportation systems, isolation of 
hazardous machinery and chemicals, opening elevator doors at 
the nearest floors to stop people from being trapped, and 
alerting surgeons to remove the scalpel from inside a patient.
    The existing west coast ShakeAlert demonstration system has 
proven the capabilities of this technology. In the recent 
magnitude 6 earthquake in Napa, California, ShakeAlert issued a 
warning across the San Francisco Bay area. Although this is 
only a demonstration system, it is of such value to the BART 
train system in the region that they have already implemented 
an automated train-stopping system.
    It takes BART just 24 seconds to bring a full-speed train 
to a stop, thereby reducing the likelihood of derailment. 
During peak hours at any point in time, there are between 40 
and 45 trains running at full speed, each carrying 1,000 
passengers.
    Earthquake early warning is not a panacea for the 
earthquake problem in the Pacific Northwest. It will not 
prevent buildings from collapsing, and we must continue to make 
progress improving our buildings so they will not collapse, as 
Dr. Ashford was just discussing. At the same time, ShakeAlert 
provides a new opportunity to reduce the impact of coming 
quakes.
    So what will it take to build an earthquake early warning 
system for the U.S. west coast? The U.S. Geological Survey is 
the Federal agency with the responsibility for issuing alerts, 
but there is a critical role for the private sector. Their 
expertise is needed to distribute the alerts broadly through 
cell phones, Internet providers, TV, and radio. Building a 
public warning system will also create new business 
opportunities to provide specialized alerts to specific users 
and the development of automated control systems.
    Building the system is not expensive. The U.S. Geological 
Survey has developed an implementation plan for the U.S. west 
coast. This system could be operational in 2 years if the 
necessary funding is made available. The cost of operating the 
system would be $16.5 million per year above what is currently 
spent.
    Last year, Congress appropriated $5 million to begin the 
process of transitioning from the current demonstration system 
to a full-blown public system. Thank you for that. The U.S. 
Geological Survey and west coast universities are now using 
those resources to improve the geophysical network 
infrastructure to make the current system faster and more 
robust. This is a great first step, but the full implementation 
plan needs to be funded.
    In closing, the earthquake threat along the U.S. west coast 
increases every day as the strain on the faults builds. It is 
not if, but when will the next earthquake strike, and we are 
due for an earthquake in multiple locations.
    Earthquake early warning is a new and important tool to 
have in our disaster preparedness kit. Japan has a warning 
system, Mexico has a warning system, China, Taiwan, Turkey, and 
Romania have systems.
    If there was an earthquake today, I believe we would build 
this warning system tomorrow. Let's not miss this opportunity 
and let's get ShakeAlert funded today.
    Thank you.
    Mr. Costello. Dr. Allen, thank you.
    Mr. Hooper, please proceed.
    Mr. Hooper. Vice Chairman Costello and distinguished 
members of the subcommittee, I am John Hooper, a senior 
principal and director of earthquake engineering with MKA in 
Seattle. On behalf of the American Society of Civil Engineers, 
it is my pleasure to provide this testimony.
    In addition to designing building structures throughout the 
country, I have also participated in building code development 
and earthquake engineering research for over three decades. I 
have served in various capacities for these efforts, and am 
currently the chair of the American Society of Civil Engineers 
Seismic Subcommittee.
    This subcommittee is tasked with developing the seismic 
requirements for the vast majority of jurisdictions throughout 
the United States. Jurisdictions adopt these seismic 
requirements by voluntarily adopting the International Building 
Code, or IBC, a comprehensive code that provides requirements 
for building design and performance.
    The majority of State jurisdictions also adopt the IBC. The 
IBC then references ``ASCE 7 Minimum Design Loads for Buildings 
and Other Structures'' for the design requirements for most 
natural hazards, including seismic.
    A major contribution to the evolution of seismic design, 
however, was development of ``NEHRP Recommended Seismic 
Provisions for New Buildings and Other Structures,'' originally 
published in 1985. These seismic design guidelines were 
developed with the leadership and support from FEMA. These 
NEHRP provisions have been continually updated since that first 
version and with the next version due out at the end of this 
year.
    The provisions also serve as a resource document to the 
seismic design requirements currently found in ASCE 7, a 
collaboration that has been in existence for over 20 years.
    The potential of a Cascadia Subduction Zone was not really 
fully understood until USGS research occurred in the late 1980s 
and was presented to the structural engineering community in 
the Pacific Northwest. Based on this research, the seismic zone 
maps in the 1994 UBC [Uniform Building Code] were modified to 
include the effects of the Cascadia Subduction Zone for the 
first time. So buildings up to that point did not include that 
seismic hazard in the design of those structures.
    Policymakers, emergency planners, and engineers in the 
Northwest are very aware of the shaking that can result from 
Cascadia. Due to continued publicity regarding new research 
that is published in the newspapers throughout the Northwest, 
the public is fairly clear about the shaking that could occur, 
but not what the performance of buildings is really going to be 
like. They are not really aware of what we design to.
    So a quick summary of what performance goals we achieve or 
try to achieve. Given a rare event, we are out there to protect 
life, and doing so we may not necessarily achieve economically 
feasible repairs to a building in that case. For critical 
buildings like hospitals and fire stations, et cetera, we 
achieve a higher performance with the intent that these 
facilities will experience damage but will be functional 
following rare earthquake ground shaking.
    To provide more resilient designs, though, a change is 
required in these seismic performance goals. This change will 
come with increased construction costs, however. Some Federal, 
State, and local jurisdictions have provided or are considering 
providing enhanced performance for some of their projects. Some 
large companies that would be financially affected by extended 
shutdowns have already done so.
    Typically, though, private owners and developers are 
generally unaware of what the building code gives them. And the 
few that do would use enhanced performance designs if they 
could have a reasonable return on their investment.
    Changing the design approach for an entire community to 
increase resiliency will be a challenge. First, the turnover of 
building stock in a typical community is low, so enhancing the 
performance of existing buildings will require seismic 
upgrading. However, it is not necessary that all buildings 
achieve enhanced performance to achieve a resilient community. 
Careful planning is needed to determine which buildings and 
facilities should be subject to enhanced seismic design or 
seismic upgrade.
    Second, and equally important, for a community to be 
resilient, the remainder of the community's lifelines must also 
be seismically designed or upgraded to an enhanced level as 
well.
    Finally, to achieve a resilient community, the key element 
is to fund these capital costs. Regardless of these challenges, 
through policymaker leadership and careful community planning, 
the beginnings of resilient communities can and increasingly 
will be achieved.
    As previously mentioned, NEHRP has made significant 
contributions. NEHRP makes Americans safer and our Nation more 
secure, resilient, and financially stronger through research in 
the earth sciences, public policy, and engineering. ASCE and I 
urge you to work with the Science, Space, and Technology 
Committee to reauthorize this vital program.
    Thank you for the opportunity to share my views. I am able 
to answer any questions that you may have.
    Mr. Costello. Thank you, Mr. Hooper.
    I will now begin the first round of questions limited to 5 
minutes for each Member. If there are additional questions 
following the first round, we will have additional rounds of 
questions as needed.
    Given Ranking Member DeFazio's strong interest and 
leadership on this issue, I would like to yield my time for 
questions to him.
    Mr. DeFazio, you are recognized for 5 minutes of questions.
    Mr. DeFazio. Thank you, Mr. Chairman. That is very generous 
of you.
    First to FEMA, I note that the National Earthquake Hazard 
Reduction Program gets $7.8 million of funding. Given what you 
just heard today, don't you believe that we should perhaps be 
investing more money in that program to deal with both early 
warning and other things that have just been talked about in 
terms of mitigation?
    Mr. Fenton. Sir, the NEHRP program is one program among 
many programs and resources we have to assist in this issue. I 
went over a number of them in my opening. The planning that we 
provide, we probably have millions of dollars in planning each 
year. We have requested money for predisaster mitigation this 
year. There is also post-disaster mitigation.
    So all those together provide a significant number of 
resources. I think we need to continue to look at the issue and 
continue to work with them, our partners across this table, 
to----
    Mr. DeFazio. Right. Now, the early warning issue, I am 
looking at giving you specific authorization since it hasn't 
been given a priority. Why hasn't it been given a priority? I 
mean, you just heard here we can save thousands of lives, 
potentially mitigate billions of dollars--well, at least a lot 
of damage in terms of shutting down systems, et cetera, with 
warning.
    Mr. Fenton. Sir, we are looking into early warning systems. 
As you know, we have had early warning systems for years now.
    Mr. DeFazio. OK. All right. Thanks. OK. That is good. We 
want to do more than look into them.
    I guess first I will go to Dr. Allen.
    You talked about the system, $38 million land-based. Would 
there be any advantage to having something that was based in 
the ocean? The Japanese have put sensors in the ocean. Does 
that give you more time?
    Mr. Allen. Absolutely it gives you more time. The piece I 
focused on is the onshore piece. So it is $16 million per year 
to run, plus $38 million capital investment to have it running 
in 2 years.
    Mr. DeFazio. Right.
    Mr. Allen. We have an implementation--we, the USGS, the 
west coast universities--have an implementation plan for that. 
It is a proven technology. So that is what we would like to do 
first.
    But in addition to that, as you say, if we were to put out 
additional sensors on the end of a cable, particularly in the 
Cascadia Subduction Zone, that would get us more sensors closer 
to the fault, and that would simply give us more warning time.
    Mr. DeFazio. OK. Thanks.
    And then, Dr. Ashford, the work you have done, the $1 
billion just for key lifeline routes in the little State of 
Oregon, that is because of bridge collapse and other, maybe 
landslides, I guess.
    Mr. Ashford. Yeah. That was just the backbone route, 
actually east of the Cascades and down through part of the 
Willamette Valley, and that is for strengthening bridges and 
trying to mitigate the landslides.
    Mr. DeFazio. So what you are thinking is the east side of 
the Cascades will be less impacted, and then you would run 
lifeline routes down through the Cascades down to where all the 
people live.
    Mr. Ashford. That is right. But even with that, all of the 
routes to the coast would be shut down from bridge failure and 
landslides, and all of U.S. Highway 101 would also be shut 
down.
    Mr. DeFazio. OK. That is a bit sobering.
    Give me that list again of countries that have early 
warning systems. I think you said Japan, China, Taiwan, 
Romania.
    Mr. Allen. That is right. Mexico and Taiwan.
    Mr. DeFazio. Mexico, yeah. I saw a very dramatic, actually, 
illustration of Mexico, which gives you the idea--I mean, the 
fault, I guess, is quite close to Mexico City, but it was in a 
TV station. Guy is broadcasting the news. He suddenly starts 
talking very quickly. My Spanish isn't that good, but I get the 
idea something is going on, and he talks for a full minute 
before things start falling down in the studio, and he is 
basically telling people to run for shelter. That is 1 minute 
with approximate, let alone what you could do with a longer----
    Mr. Allen. That is right. And the analogy to the Cascadia 
Subduction Zone is exactly the right one in that it is offshore 
subduction zone earthquakes that Mexico City is worried about. 
Mexico City is onshore, and they have a little bit over a 
minute's worth of warning, as you say.
    In the case of the Pacific Northwest, the warning time will 
increase with distance up or down, but the people who are 
closest to the event would have less warning time, that is 
right.
    Mr. DeFazio. OK. Thank you.
    And if we had this offshore, I mean, do have an estimate on 
what an offshore? The Japanese are deploying offshore, so we 
must--I mean, there is a known technology. Is that correct?
    Mr. Allen. That is correct, yes.
    Mr. DeFazio. OK. And, obviously, since you have to lay a 
cable, it is more expensive.
    Mr. Allen. That is right.
    Mr. DeFazio. And you have to put things on the sea floor. 
So----
    Mr. Allen. Yeah. I do not have a cost estimate that I can 
tell you.
    Mr. DeFazio. OK.
    Mr. Allen. It is significantly more expensive than onshore, 
and it is primarily because of putting out the offshore cable. 
But there is no question that what that would allow us to do in 
terms of early warning would be significant.
    Mr. DeFazio. Well, I note that a--I can't remember who it 
is--but some major cable company is going to lay a new super 
fiber optic cable from Bandon to Asia. Maybe we can just run a 
little splice off that, and maybe we should look into that and 
see if we can somehow get spliced into that.
    So I guess that is it, Mr. Chairman. I would just observe 
that this is very, very shortsighted that we won't partner. My 
State is ponying up a little money. We were gong to lose the 
little bit of land-based detection we had now. It was 
temporary, and it was going to be moved to Alaska, and I got 
the State to put up, I think, $440,000 to buy the sensor in 
place.
    So States will be willing to partner, but this should be a 
shared responsibility to build out a robust early warning 
system, save lives. And it will save manufacturing processes. 
It will potentially save the Metro system in Portland if they 
aren't running the light rail over the bridges when the bridges 
go down.
    There will be one bridge that survives in Portland, which 
happens to be the brand new light rail pedestrian bridge. It is 
the only one probably that will survive. And that was a 
substantial Federal investment partnering with the State.
    Thank you, Mr. Chairman.
    Mr. Costello. Mr. Carson.
    Mr. Carson. Thank you.
    I am curious. There was a recent article in Science 
magazine talking about the usage of GPS smart phones, to add on 
to Ranking Member DeFazio's question, assisting in detecting 
earthquakes essentially. Is it feasible that this technology 
could be incorporated into the existing warning system? And at 
what point, if you could project, when will our early 
earthquake detection systems be compatible with cell phones and 
other personal devices?
    Mr. Allen. So yes. The answer is yes. It is feasible that 
we could use the sensors in smart phones. The article that you 
are talking about was actually trying to use the GPS sensor in 
a smart phone.
    There are also projects, including one at Berkeley, to use 
the accelerometer in the cell phone. So now we are talking 
about using the seismometer component and the GPS positioning 
component.
    So there are multiple projects out there that are exploring 
this use. I lead one of them. So clearly I think that there is 
real value to these systems. But I think it is important to 
separate clearly the smart phone-based kind of systems from the 
ShakeAlert demonstration system that we are running today.
    The ShakeAlert demonstration system is using what we now 
call traditional geophysical networks, which are hardened. They 
are more robust. We know that they will work. We know that they 
deliver warnings. They delivered warnings in the Napa 
earthquake.
    Cell phones, I believe, will help us improve the system in 
the future, but that is very much a research undertaking at 
this stage. It is not ready to start delivering public safety 
alerts.
    Mr. Carson. OK. Next question. Have the lessons learned 
from the last year's National Level Exercise on the Alaska 
earthquake scenario been compiled and publicly released? And, 
generally, in your mind, what is FEMA's timeframe for compiling 
and even publicly issuing lessons learned from that exercise to 
ensure that plans can be improved and even tested in the next 
exercise?
    Mr. Fenton. Yes, sir. My understanding is the lessons 
learned from last year's earthquake exercise have not been 
fully released yet. However, we have released some summaries of 
some of those lessons learned.
    Just from the recent exercise last week with southern 
California, there are a number of things that we are looking at 
with regard to prioritization and movement of assets, 
operational coordination, working with the private sector more 
closely, international support, especially when it comes to 
USAR and some of the legal issues there, and then some of the 
planning issues that we have already seen.
    We haven't waited for the official after-action report to 
start taking action to improve on those lessons learned, and we 
continue to do that.
    Mr. Carson. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Costello. Thank you.
    Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Dr. Ashford and Dr. Allen, what potential is there for 
public-private partnerships to improve earthquake preparedness 
and response? And do you have any examples of successful 
partnerships that have emerged surrounding your particular 
work?
    Mr. Ashford. Yeah. Thank you, Mr. Congressman.
    I think one example is this Cascadia Lifelines Program that 
we have established at Oregon State University. This was where 
we have private companies together with State and Federal 
agencies pooling research funds to address joint challenges 
that all these lifeline providers face in the face of this 
Cascadia event. And it is funded and directed by these 
partners, both in the private sector as well as the public 
sector.
    Mr. Allen. And in the case of the earthquake early warning 
effort, very much to build the fully effective system is a 
public-private partnership. And what I mean by that is that we 
see the geophysical networks that are run by Federal agencies, 
State agencies, and universities, academic institutions, 
providing the kernel of the alert. But it is the private sector 
that is going to get that alert out to everybody most 
effectively.
    And so already we have partnerships with groups. Although 
this is a demonstration system and it is not public, there are 
groups who want to be participating in issuing the alerts, 
companies that have cell phone apps, companies that use 
dedicated radios like the NOAA weather radios, for example, 
things like that.
    And so the private sector is ready. When we have a public 
system, when we put out these sensors, when we issue these 
alerts, they are ready to then take it and deliver it to 
everybody in a multitude of ways. And so that is really the 
kind of private-sector part of the project.
    Mr. Perry. So in that vein, could there be a public-private 
partnership in terms of post-earthquake damage assessment 
regarding the use of unmanned aerial systems? Have you looked 
into that at all?
    Mr. Ashford. Yeah. That is something that we at Oregon 
State University, we have several experts on unmanned aerial 
systems, and one of the things that we are considering is doing 
post-earthquake evaluation of infrastructure using those UAVs.
    Mr. Perry. And they would be by private entities as opposed 
to, say, FEMA, for instance?
    Mr. Ashford. Yeah. They could be by private entities. 
Really, people would buy the UAVs to inspect their own 
infrastructure. So private companies like Portland General 
Electric, Northwest Natural Gas. I know that ODOT is also 
considering buying UAVs to do their own inspections. But it 
could be a private-sector company owns the UAVs and that they 
are subcontracted out to the agencies.
    Mr. Perry. Dr. Allen, any input?
    Mr. Allen. So not with UAVs, no. I focus on the early 
warning piece before the shaking. So that is not really 
something I have knowledge of.
    Mr. Perry. Thank you, gentlemen.
    Mr. Chairman, I yield back.
    Mr. Costello. Thank you.
    Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing, and the ranking member.
    I live on the east coast and I have a stepdaughter on the 
west coast, and I wanted to be here to hear this. And I heard 
that you had in your research 140 recommendations that you were 
able to determine would help. I don't think you are going to be 
able to implement a lot of those recommendations because I 
don't think there is a lot of money here for that.
    But I was wondering, of those 140 recommendations, which 
are the ones that are more reasonable and, quite frankly, less 
costly to implement? And the reason I say that is because, 
although it is different, in New Jersey we got hit by Sandy, 
one of the things that we found out was that gas stations had 
gas but had no electricity to pump it.
    So I was wondering, a reasonable recommendation would be to 
require these gas stations to have a generator. Can you just 
talk a little bit about that?
    Mr. Ashford. Sure. In my task force we took those 140 
recommendations and we narrowed it down to about 15 that we 
thought were the most important. And I will just give you three 
examples.
    Our most important recommendation from our task force was 
for the Governor to appoint a chief resilience officer or 
policy adviser, someone that would really take the lead on 
resilience efforts in the State of Oregon. That is currently in 
our Ways and Means Committee in the State and pending funding.
    I think another example is one of our recommendations is to 
change hazard preparedness literature to extend the 
recommendation on how long people should be prepared to be on 
their own from 72 hours to 2 weeks. Because of the geographical 
distribution of the damage in these subduction zone events, 
people should really be prepared for a couple of weeks to be 
ready.
    And I think the last thing, while there is a big price tag 
on the retrofit of the transportation system, we are taking a 
50-year horizon. And I think by starting now and taking our 
time, I think that is not something we are trying to do all at 
once, but hoping that we can gain that resilience by the time 
that next earthquake hits.
    Mr. Sires. Anybody else went to join in on anything?
    What can we do to ensure that States are properly 
developing building codes and enforcing them? Because I see the 
Tornado Alley. I mean, these homes are made out of wood. I was 
just wondering, what can we do to force the States to do a 
better job with the building code?
    Mr. Hooper. The majority of States actually have a building 
code that they adopt voluntarily and then local jurisdictions 
do it. So the vast majority have it. The issue on tornadoes is 
that is a hazard that we do not design for. It is not one of 
those natural hazards that the ASCE 7 deals with because the 
return interval on a tornado hitting that house is, like, 
100,000 years. It is just literally that act of God.
    Mr. Sires. Yeah. But I was thinking in terms of where you 
have a school. I mean, we should really make those schools a 
place where the community gather if there is a catastrophe.
    Mr. Hooper. You can do that with schools. They have had 
some success in the Midwest in hardening schools and putting 
safe rooms, big safe rooms in schools. So that technology is 
available. But just the typical home or mobile home and things 
like that, that will never be able survive a tornado hit.
    Mr. Sires. But what I am looking for is what can we do to, 
let's say, tell the State: Look, you have to make these 
schools, that place where a community meets when there is a 
catastrophe or in anticipation of one, safer.
    Mr. Hooper. Why don't you go ahead.
    Mr. Allen. So I guess one comment that I would have to sort 
of both of these questions is that I think one of the real 
challenges we face when it comes to all natural hazards is that 
they don't come around very frequently. I mean, that is good 
news, right? But the bad news is that it is very difficult, 
therefore, to get people's attention when it comes to these 
houses. And that is why these things don't get enforced very 
effectively sometimes.
    And this is actually, I think, one of the areas where the 
earthquake early warning effort has a potential for a 
significant broader impact. I mean, we would build an early 
warning system in order to provide warnings. But early warning 
has a cache with people because they can envision: Now I am 
going to get a warning on my cell phone. This is something very 
real. And we can use that interest to then leverage broader 
preparedness for, in that case, the earthquake problem.
    So I think what we have to do is kind of look for ways to 
link together these various technology opportunities to also 
get people's interest and to encourage individuals to take 
responsibility to have the 2 weeks' worth of supplies or to 
have a tornado shelter.
    Mr. Sires. And, Dr. Allen, you said that you could evacuate 
a school in 1\1/2\ minutes? I was a teacher for 10 years. I 
would like to see that.
    Mr. Allen. That was what the principal of a certain 
school----
    Mr. Sires. Well, you tell that principal I would like to 
see that.
    Thank you very much.
    Mr. Costello. Thank you.
    I will now recognize each Member for an additional 5 
minutes of questions.
    I will direct my question to Mr. Hooper, but then ask each 
of you to weigh in, and I think we are sort of scratching the 
surface of this question already.
    This subcommittee has held a hearing and hosted a 
roundtable discussion on the dramatic increase in disaster 
costs and losses. We are working to identify opportunities to 
drive down the costs of disasters, and particularly the burden 
on the American taxpayer.
    Mr. Hooper, I will start with you, but then open it up to 
everyone. How can some of the work you are doing potentially 
reduce disaster costs and losses in the United States?
    Mr. Hooper. Well, we are continually improving the 
knowledge and the design of how we deal with earthquakes and 
other natural hazards. The key thing there is to implement that 
correctly. The designers have to design the infrastructure and 
the buildings correctly. ASCE 7, the document that everyone 
uses can do that.
    Then we have to get it built correctly. And so there is 
also this side of making sure it gets constructed the way it 
needs to be done.
    But the other challenge we face, though, is the building 
turnover, guys, is really short. It takes a long time, meaning 
every year only one-half of 1 percent of the building stock 
turns over, so that it will take time to implement better 
design.
    As I mentioned in my testimony, Cascadia did not exist in 
our design world until 1994. That is probably less than 2 or 3 
percent of buildings in the Pacific Northwest that have been 
designed using that approach and that shaking hazard in mind. 
So over time we will get better designs as the 50-year window, 
as mentioned earlier, we will get better improvement just 
through that window of the length of time.
    And so there are a lot of different things happening, but I 
think time is on our side as long as we continue to implement 
good design and, very importantly, construction practices.
    Mr. Allen. So I think that in the case of earthquake early 
warning, the sort of cost-benefit argument of implementing a 
system is a very straightforward argument. Some of the examples 
of what you would save, I mentioned the Northridge earthquake, 
we know that 50 percent of the injuries were caused by falling 
hazards. If everybody was under a sturdy table having received 
a warning, then we would halve the number of injuries. It is 
estimated that the cost of just those injuries was $2 billion 
to $3 billion.
    When we think about the BART train system, each of the BART 
trains themselves is worth $30 million. So if you just save 1 
train, you have saved $30 million, never mind about the 1,000 
passengers that might be on the system.
    If we talk about schools that evacuate or other buildings 
that evacuate, we are talking about both reducing the number of 
fatalities and the number of injuries.
    The list goes on. So in terms of the cost-benefit for an 
early warning system, I think it is a real slam dunk.
    Mr. Hooper. I would like to add one more comment as well.
    I mentioned our performance goal is life safety. That is 
the major thing in event of an earthquake, protect the people 
within the building from being killed or seriously injured.
    To help improve what we do economically, we need to up the 
game. We need to shoot for enhanced performance above that 
level if we really want to try to reduce costs. But in doing 
that, that requires the building costs to go up as well for 
anything that gets built new, upwards to 5 or 10 percent more 
of the construction costs in a school or a highrise or 
something like that. It doesn't sound like much, but sometimes 
that is the tipping point between the developer saying yes to a 
project and no to a project.
    But that is something we should dialogue on because to be 
resilient, to be quite honest, we do need to have better 
performance in just the life safety that we target today.
    Mr. Costello. Anyone else?
    Mr. Ashford. Yeah. I think that if you look at earthquake 
research and you look at wise use of taxpayer dollars, I will 
give you a couple of examples where research has saved millions 
of dollars with a huge return on the investment.
    An example in Oregon. Oregon Department of Transportation 
invested in about a $2 million research program at Oregon State 
University ultimately saving $500 million in a bridge retrofit 
program carried out in the last decade.
    Another example, for our Cascadia Lifelines Program, we are 
looking at innovative ways to retrofit old buildings, old 
masonry structures, that we, rather than having to tear down a 
structure, we can retrofit it, leave it in place, and again 
save millions of dollars.
    Mr. Fenton. Sir, I would just add, codes and standards, I 
agree with. Through our NEHRP program we do a lot to establish 
standards to help improve the building codes across the 
country. There is an enormous amount of literature we provide 
that is used by the construction companies. This public 
education is used to make them aware of the threats and to show 
them what to do when these threats happen.
    Mitigation, whether it is building back stronger or moving 
individuals out of harm's ways, is critically important.
    I think some of the new authorities we got after Sandy with 
regard to 424 allow us to, when we build back, to go ahead and 
build mitigation into those projects at a higher rate than 
previously before to build more resiliency.
    Mr. Costello. Thank you for your answers there.
    Mr. Carson?
    Mr. Carson. Thank you, Chairman.
    My final question, is there anything that Congress can do 
specifically to encourage the private sector to incorporate 
seismic measures and infrastructure repairs and replacement?
    Mr. Ashford. I think that one of the things we are looking 
at in Oregon, especially with our private utilities, is 
allowing them to recover the cost in their rate base, allowing 
them to recover the costs not only of the risk assessment, but 
also their mitigation efforts. And that is some of our 
recommendations from our task force report, and those are 
things that are pending in front of the Oregon legislature.
    I would say that you could do the same thing for federally 
regulated utilities.
    Mr. Carson. OK. Thank you.
    I yield back.
    Mr. Costello. Thank you for your valuable testimony. Your 
comments have been helpful to today's discussion. If there are 
no further questions, I would ask unanimous consent that the 
record of today's hearing remain open until such time as our 
witnesses have provided answers to any questions that may be 
submitted to them in writing and unanimous consent that the 
record remain open for 15 days for any additional comments and 
information submitted by Members or witnesses to be included in 
the record of today's hearing. Without objection, so ordered.
    I would like to once again thank our witnesses for their 
testimony today.
    If no other Members have anything to add, the subcommittee 
stands adjourned.
    [Whereupon, at 11:31 a.m., the subcommittee was adjourned.]
    
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    
                         [all]
                         
                         
                         
                         
                         
  
    
                                    
</pre></body></html>
